APPENDIX A
ORDER denying C.O.A. and Reconsideration;
Order
and

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 20 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

JOHN C. STUART,

No.

Petitioner-Appellant,
v.
ATTORNEY GENERAL FOR THE STATE
OF ARIZONA; DAVID SHINN, Director,
Arizona Department of Corrections,

20-16380

D.C. No. 2:19-cv-02540-GMS
District of Arizona,
Phoenix
ORDER

Respondents-Appellees.
Before:

IKUTA and MILLER, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
1 he motions to file exhibits under seal (Docket Entries No. 7 & 8) are
denied.
All other pending motions are denied as moot.
DENIED.

/ipp£XD/X A

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

DEC 11 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JOHN C. STUART,
Petiti oner-Appell ant,
v.

No.

20-16380

D.C. No. 2:19-cv-02540-GMS
District of Arizona,
Phoenix

ATTORNEY GENERAL FOR THE STATE ORDER
OF ARIZONA; DAVID SHINN, Director,
Arizona Department of Corrections,
Respondents-Appellees.
Before:

BYBEE and HURWITZ, Circuit Judges.

Appellant’s motion for reconsideration (Docket Entry No. 11) is denied. See
9th Cir. R. 27-10.
No further filings will be entertained in this closed case.

|w|

Office of the Clerk
United States Court of Appeals for the Ninth Circuit
Post Office Box 193939
San Francisco, California 94119-3939
415-355-8000

Molly C. Dwyer
Clerk of Court

No.:
D.C.No.:
Short Title:

July 17, 2020

20-16380
2:19-cv-02540-GMS
John Stuart v. Charles Ryan, et al

Dear Appellant
The Clerk's Office of the United States Court of Appeals for the Ninth Circuit has
received a copy of your notice of appeal and/or request for a certificate of
appealability.
A briefing schedule will not be set until the court determines whether a
certificate of appealability should issue.
Absent an emergency, all subsequent filings in this matter will be referred to the
panel assigned to consider whether or not to grant the certificate of appealability.
All subsequent letters and requests for information regarding this matter will be
added to your file to be considered at the same time the cause is brought before the
court.
The U.S. Court of Appeals docket number shown above has been assigned to this
case. You must indicate this Court of Appeals docket number whenever you
communicate with this court regarding this case. Motions filed along with the
notice of appeal in the district court are not automatically transferred to this court
for filing. Any motions seeking relief from this court must be separately filed in
this court's docket.

APPENDIX B
ORDER denying Objection

Case: 2:19-cv-02540-GMS

Document 66

Filed 09/10/20

Page 1 of 2

1
2
3
4

5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8

9

No. CV-19-02540-PHX-GMS

John C Stuart,

ORDER

Petitioner,

10
11

v.

12

Charles L Ryan, et al

13

•?

Respondents.

14
15

16

Pending before the Court is Petitioner’s Objection regarding the Order on Motion

17

for Reconsideration (Doc. 65) filed on August 13, 2020. After review of the docket, the

18

Court notes that on June 26,2020 an Order (Doc. 58) was entered accepting the Report and

19

Recommendation and directing the Clerk of Court to terminate this action. It was

20

terminated on June 26, 2020. Since that date, Petitioner filed a Motion for Reconsideration

21

(Doc. 60) on July 13, 2020. The Court entered an Order (Doc. 64) on July 30,2020 denying

22

Petitioner’s Motion for Reconsideration. The Court finds the pending Objection re Order

23

on Motion for Reconsideration (Doc. 65) is untimely and the Court will therefore deny the

24

same.

25

III

26

III

27

III

28

/4ppg?t/£>/x

Case: 2:19-cv-02540-GMS

Document 66

Filed 09/10/20

Page 2 of 2

1

IT IS HEREBY ORDERED that Petitioner’s Objection re Order on Motion for

2

Reconsideration (Doc. 65) regarding Order (Doc. 64) is denied. This action shall remain

3

closed. The Clerk of Office is directed not to accept any future filings in this case.

4

Dated this 10th day of September, 2020.

5
6

G. Murray J§now
Chief United St ate s'Di strict Judge

. .7
8

10
11
12
13
14
15
16
17
1O

iO

19
20
^1

Z,I

22
23
24
25
26
27

ll

28

-2-

APPENDIX C
ORDER denying Reconsideration

Case: 2:19-cv-02540-GMS

1

Document 64

Filed 07/30/20

Page 1 of 2

WO

2
3
4

5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8

9

John C. Stuart,

No. CV-19-02540-PHX-GMS

Petitioner,

10
11

v.

12

David Shinn, et al.,

13

ORDER

Respondents.

14
15

Pending before the Court is Petitioner John C. Stuart’s Motion for Reconsideration.

16

(Doc. 60.) Petitioner argues that State v. Zaid, No. 2 CA-CR 2018-0159, 2020 WL

17

3496690, *1 (Ariz. Ct. App. June 29, 2020), a recent opinion from the Arizona Court of

1J- 8

Appeals, “establishes [irrefutably] that Petitioner was denied Due Process of law exactly

19

as Petitioner stated in Grounds One, Three, Four Six, Eight, Nine, Ten, Eleven, Twelve,

20

Thirteen, Fourteen, and Sixteen—thus in 12 of the 17 grounds Petitioner has been fully

21

vindicated by the Arizona Court of Appeals.” (Doc. 60 at 4.) Petitioner requests that the

22

Court “now reconsider its determinations for all grounds in light of Zaid, id., and the fact

23

that Petitioner was deprived of his right to an adequate defense by the incorrect ruling to

24

preclude the very evidence proving all of Petitioner’s trial defenses.” Id. at 11.

25

Motions for reconsideration are disfavored and should be denied “absent a showing

. 26

of manifest error or of new .facts or legal authority.” LRCiv 7.2(g). A motion for

'27

reconsideration may not repeat arguments made in support of the motion that resulted in

28

tliQ ArHor fnr

uuo

wjluoi

tt/Vi i

r* V\ tV* a r»A *-+ t r raaEp roAAr> pi

Ar\

7/7

lot vViiioii tnC ^/<xiCy oooivb tuowuoiuoiauon. /u.

/4pp£s»v/x C

TA o t~>

ito Dafi +1

10

am

jl ou.hOj.ioi

r»

o

Aft

avP

^uauuii ui now

Case: 2:19-cv-02540-GMS

Document 64

Filed 07/30/20

1

legal authority, Petitioner has not shown that this legal authority is relevant to his Petition.

2

The Court adopted the R&R denying Petitioner’s Petition for Writ of Habeas Corpus

3

because (1) Petitioner’s claims were procedurally defaulted, either because they were

4

unexhausted or because the state courts denied relief based on an adequate and independent

5

state rule, and (2) Petitioner’s “actual innocence” could not overcome the procedural

6

default of his claims because his allegations of constitutional error were not “new” and

7

“reliable.” See (Doc. 58 at 5-6).Further, Zaid is a direct appeal from a state trial court

8

conviction and lacks the procedural deficiencies of Petitioner’s case.

9

IT IS THEREFORE ORDERED that Petitioner John-C, Stuart’s Motion for

10

Reconsideration. (Doc. 60) is DENIED.

11

Dated this 30th day of July, 2020.

12
13

14

G. Murray JEnow
Chief United States#District Judge

15
16
17
18
19
20
21
22
23
24
25
26
27
a

Page 2 of 2

n

-2-

APPENDIX D
JUDGMENT accepting Report and
Recommendation

Case: 2:19-cv-02540-GMS

Document 59

Filed 06/26/20

Page 1 of 1

1
2
3
4
5

6

IN THE UNITED STATES DISTRICT COURT

n

FOR THE DISTRICT OF ARIZONA

8

9

NO. CV-19-02540-PHX-GMS

John C Stuart.
Petitioner,

10
11

v.

12

Charles L Ryan, et al.,

13

JUDGMENT IN A CIVIL CASE

Respondents.

14
15
16
17

Decision by Court. This action came for -consideration before the Court. The
issues have been considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED adopting the Report and Recommendation
Petitioner’s Petition for Writ of

18

of the Magistrate Judge as the order of this Court.

19

Habeas Corpus pursuant to 28 U. S. C. § 2254 is denied and this action is hereby

20

dismissed with prejudice.
Debra D. Lucas
Acting District Court Executive/Clerk of Court

21
22
23
24

June 26, 2020
By

s/ Rebecca Kobza
Deputy Clerk

25
26
0^7

^/

28

/jppdf/UD/X

D

APPENDIX E
ORDER denying Petition

jy xior^c/dy
poiuop sr.v\ qoupw ‘111103 omosdns; mioziiy oqi ui a\oiao^j ioj uoiiuof|

St

OS 0.!c! 0 p3|lj U3r,l .i3UOU;P(j SOOLiO'il'OS pi!5’ SLlOipiAUOO fq.!3l!OUjlOt( poilS.UjjR S|!’Ocld\/

LZ

jo 111103 Buo'/Liy oqi ‘SlOc ‘Sc If-idy >-'0 'oouopiAo loioRinqo oiqissiuuodi.ui jo uoissiuspii

9c .

jo onssi oip

[iio Suisiiu ‘pioddi? loo.up b popj A|oum inuoiiuoj 'union Sunooqs Xq-OAup

Sc

oqi uo i.u.ioj uosi.id iBoA-uoounoj luoxmouoo r put; juooo .lop.imu oaiSop-puooos oip uo iu.i3)

PC

UOSl.ld .IB3A-U33jq§13 UR 0.1 10U011110C[ pOOUOlUOS 1.11103 |BI!1 Ol[J ‘1511110011 tflllOUOlUOS t/IOC '£

£c

Ximiuiif oqi iv -psSjeip so XipnS jsuoijipd punoj XjhI'b ‘[buioj p.itR (juiiisiiu b u; Suiqnsoi)

ZZ

[Ri.p monbosqns oqi buiA\o[[o.[ biuiiooqs Xq-OAiip pu« .lopinui ooinop-puooosjoqnBO junoo

It

ouo uo .louoiinoj popipui. A.inf puBip) Aiuno;) BdoouRjAj l! ‘800c ?l I Xjciuqoj uq

Oc ■

aNinmiOMOvsi

61

oqi sidopn puo uoiiuOfj oqi somop lino 3 oq j (xc non)

Si

oqi 01 uoiiosfqo pspuouiB hr popj Xpuiii louoiinop ■(£>' 'ooq) uoiiuoj oqi Xuop 111103

L!

uooqq oSpnf

91

§ O'STl 8c Jspun

SI

oqi mqi nuipuoiuuioooi (.31331-) iioiiRpuouiuioooy pun uodo-y spioui/w
oiB.us|i?BjAi sojBis popun pun (1 ooq) snd.103 snoqiq ] jo iii/v\ t: ioj
uoiiuoc]

P\

sq^isuoiiiioj,,) sq.iBni^ -3 uqof louotinoq 01 n 111103 oqi oiojoq oiiipuo([

ei
siuopuodsoy

*13(1*10

cl

‘•|ll JO ‘lllliqg piAtlQ

11

•A

01

Mouonijoj

Sl'MO-XHd-OfrSrO-61-AO '°N

6

‘URiUS 0 ciqof

S

VNKX/IMV AO XDI*LLS!G 3 HI *103

m i03 onxism sii i vxs crxiiM i aim m

9

s
p
c

z
0/W

A|Oio6i3d 0ZI9ZI90 P9|!d 89 lueiunooa SMO-ObSZO-AO-SIX 9S63

Case 2:19-cv-02540-GMS Document 58 Filed 06/26/20 Page 2 of 7

On March 7, 2016', Petitioner hied a Notice of Post-Conviction Relict (“PCR ’); on
2

August 10, 2016, Petitioner filed a “Corrected Petition for Post-Conviction Relief;

3

Memorandum of Points and Authorities” (the “Corrected PCR Petition”). Following

4

briefing, the trial court dismissed the PCR proceeding. 1 he Arizona Court of Appeals

5

granted Petitioner’s request for further review but denied relief The Arizona Supreme

6

Court denied further review. On October 30, 2018, Petitioner filed a habeas petition in the

7

Arizona Supreme Court. The Arizona Supreme Court summarily dismissed the habeas

8

petition on November 14, 2018. Petitioner then timely initiated this federal habeas

9

proceeding on April 19, 2019 by filing the Petition and accompanying briefing.

10

On May 7, 2019, the Court screened the Petition and concluded that it contains the
following seventeen grounds for habeas relief:

12

13
14
15
16
17
18
19
20
21
?2

23
24
25
26
27
28

In Ground One, Petitioner alleges that he is actually innocent. In Ground
Two, Petitioner alleges that Ibis speedy trial right and right to selfrepresentation were violated. In Ground Three. Petitioner alleges that his due
process and eqtial protection rights were violated when "the Slate charged
Petitioner for events that are not considered criminal under Arizona law...”
n Ground Four, Petitioner alleges that Fifth, Sixth, and Fourteenth
Amendment rights were violated when the prosecution suppressed certain
evidence. In Ground Five, Petitioner alleges tiat his Fourth, Fifth, Sixth, and
Fourteenth Amendment rights were violated when the State unreasonably
seized and then destroyed certain evidence, and “refused to allow ( Petitioner]
to continue speaking with his attorney...” In Ground Six, Petitioner alleges
that his Fifth and Fourteenth Amendment rights were violated when the trial
court “and other courts” issued “numerous arbitrary and capricious ruling ...
that always favored the State and prejudice [Petitioner].” in Ground Seven,
Petitioner alleges that his Fifth, Sixth, and Fourteenth Amendment rights^
were violated when the prosecution “withheld information and evidence o^f
the judges’ pecuniary gam and conflict of interest relevant to the conviction.”
In Ground Fight, Petitioner alleges that his Fifth, Sixth, and Fourteenth
Amendment rights were violated when the trial court denied payment tor a
defense forensTe expert. In Ground Nine, Petitioner alleges that his Fifth,
Sixth, and Fourteenth Amendment rights were violated when the State
“refused to charge the kidnappers and the court precluded any and all
evidence that |the] kidnapper was under the influence of illicit drugs.” in
Ground Ten, Petitioner alleges that his Fifth and Fourteenth Amendment
rights were violated When the State “ignored, violated, or circumvented
Arizona law to garner the improvident conviction.” In Ground Pleven.
Petitioner allegeslhat the cumulative effect of the errors in his grounds for
relief violate his First, Second, Fourth, Fifth, Sixth, Fighth, Ninth, Tenth.
Thirteenth, and Fourteenth Amendment rights. In Ground Twelve. Petitioner
alleges that his Fifth and Fourteenth Amendment rights were violated when
the prosecution “misrepresented Arizona iaw to the jury' and “redacted the
jury’ instruction to comport with (their] misrepresentations...” In Ground
Thirteen, Petitioner allcues that his Fifth and Fourteenth Amendment rights
were violated when the trial pidge “intentionally misled the jury m

Case 2:19-cv-02540-GMS Document 58 Filed 06/26/20 Page 3 of 7

responding to their jury questions.. .” In Ground Fourteen, Petitioner alleges
that his Fifth and Fourteenth Amendment rights were violated when he was
“framed.’'' Jn Ground Fifteen, Petitioner alleges that his Finn, Sixth, and
Fourteenth Amendment rights were violated- when the prosecutor “acted as
counsel [for a j state witness...” In Ground Sixteen, Petitioner alleges that his
Fifth and Fourteenth Amendment rights were violated when “the State and/or
Court suppressed and/or precluded actual facts and laws...” In Ground
Seventeen, Petitioner alleges that his right to counsel was denied at various
critical stages” throughout his prosecution.

2

4
5
6

(Doc. 5 at 1-3).

.

7

In her R&R. the Magistrate Judge found Grounds Two through Seventeen to be

8

proccdurally defaulted. She further concluded that even if Petitioner’s freestanding actual

9

innocence claim in Ground One is cognizable in this proceeding, it is without merit.

10

Finally, she recommended that the Court deny Petitioner’s request for an evidentiary

1 I

hearing. Petitioner objects to each of these recommendations.
DISCUSSION

12
13

I.

Standard of Review

14

A “district judge may refer dispositive pretrial motions, and petitions for writ of

15

habeas corpus, to a magistrate, who shall conduct appropriate proceedings and recommend

16

dispositions.” Thomas v. Am, 474 U.S. 140, 141 (1985); see also 28 U.S.C. § 636(b)( 1 )(B);

17

Estate of Connors v. O'Connor, 6 F.3d 656, 658 (9th Cir. 1993). Any party “may serve and

18

file written objections” to the R&R. 28 U.S.C. § 636(b)(1). “A judge of the court shall

19

make a de novo determination of those portions of the report or specified findings or

20

recommendations to which objection is made.” Id. District courts, however,, are not

21

required to conduct “any review at all . . . of any issue that is not the subject of an

22

objection.'"Am, 474 U.S. at 149. A district judge “may accept, reject, or modify, in whole

- 23

or in part, the findings or recommendations made by the magistrate.” 28 U.S.C. $

24

636(b)(1).

25

II.

Analysis
The Magistrate’s Findings

26

A.

27

The Magistrate Judge found grounds Four, Five, Six, Fight, Nine, Ten, Twelve,

28

Sixteen, and Seventeen and the right to self-representation claim contained in Ground Two

-3

Case 2:19-cv-02540-GMS Document 58 Filed 06/26/20 Page 4 of 7

proccdurally defaulted. She did so because the state courts denied relief on those claims in
2

Petitioner’s. Corrected . PCR Petition based on an adequate and independent-state rule,
Arizona Rule of Criminal Procedure 32.2(a)(3), which prohibits a defendant from raising

j

4

“in a Rule 32 petition any claim that was waived at the trial level or that should have been

5

raised on direct appeal.” The Magistrate Judge then found that the speedy trial claim raised

6

in Ground '1 wo and the claims raised- in Grounds Three, Seven, Eleven, Thirteen, Fourteen,
and fifteen were proccdurally defaulted because those claims were unexhausted, and if

<S

Petitioner returned to state court to present them in a second PCR Petition, that petition

9

would be untimely, d he Magistrate Judge found that Petitioner did not fairly present

10

Grounds Three, Thirteen, and Fifteen in his state court direct appeal and PCR proceedings.

11

She also found that Petitioner did not fairly present Grounds Seven, Fdeven, and Fourteen

12

to the trial court in his PCR proceeding, and that his presentation of Grounds Seven, Eleven,

13

and Fourteen to the Arizona Supreme Court in his habeas petition did not render the claims

14

exhausted. The Magistrate Judge recommended that none of these procedural defaults be

15

excused because Petitioner did not establish cause for the default and the Schtup'

16

gateway/miscarriage of justice exception did not apply.

17

The Magistrate Judge then addressed Petitioner's actual innocence claims. In its

18

Screening Order, this Court found that Ground One presented a claim alleging that

19

Petitioner is actually innocent. Operating under the assumption that Petitioner’s

20

freestanding actual innocence claim-was cognizable in a federal habeas proceeding, the

21

Magistrate found that Petitioner had not met the “extraordinarily high’’ threshold of

22

“affirmatively proving] that he is actually innocent.” Carriger v.■ Stewart, 132 F.3d 463,

23

477 (9th Cir. .1997) (cn banc). Moreover, the Magistrate Judge recommended that, to the

24

extent Petitioner intended to raise freestanding innocence claims when he alleged that he

25

was “(actually innocent” and was.“framed” by the State in his other seventeen grounds, the

26

Court dismiss those claims.

27

Finally, as to Petitioner’s request for an evidentiary hearing, the Magistrate Judge

28
i

Sc hi up v. Dele, 5 13 U.S. 298, 324 (1995).

Case 2:19-cv-02540"GMS Document 58 Filed 06/26/20 Page 5 of 7

found that the record was adequately developed and recommended that the Court deny
2

Petitioner’s request. See Roberts y. Marshal/, 627 F.3d 768, 773 (9th Cir. 2010) (finding

2>

“a district court is not obligated to hold evidentiary hearings to further develop the factual

4

record” when the record is “amply developed” and explaining that “(djislrict courts have

5

limited resources (especially time), and to require them, to conduct further evidentiary

6

hearings when there is already sufficient, evidence in the record to make the relevant

7

determination is needlessly wasteful”).

8

B.

9

With respect to the unexhausted claims, Petitioner argues that the Magistrate Judge

10

ruled in Respondents’ favor because Respondents “fallaciously] claim[cd] . . . that

11

Petitioner did not file an Arizona Supreme Court Habeas petition.” (Doc. 53 at 4.)

12

Petitioner further asserts that “an Arizona Supreme Court Habeas petition is sufficient to

13

defeat default claims.” (Doc. 53 at 8.) There is no dispute that Petitioner filed a habeas

14

petition with the Arizona Supreme Court. Instead, the Magistrate Judge found that the

15

unexhausted claims were not fairly presented in the stages preceding their presentation to

16

the Arizona Supreme Court. As the case cited by Petitioner states, “[a] petitioner must alert

17

the state courts to the fact that he is asserting a federal claim in order to fairly and fully

18

present the legal basis of the claim.” Insyxiengniay v. Morgan, 403 F.3d 657, 668 (9th Cir.

19

2005). In fact, Petitioner’s unexhausted claims were not fairly presented to the appropriate

20

state court, as “| presentation of a [new] claim by a habeas corpus petition directed to the

21

Arizona Supreme Court does not exhaust state remedies for federal habeas purposes.”

22

Moreno v. Gonzalez, 1 16 F.3d 409, 4 10 (9th n ir. 1997), certified question answered, 1.92

23

Ariz. 131,962 P.2d 205 (1998).

Petitioner’s Objections

24

The rest of Petitioner’s Objection focuses on his actual innocence and his request

25

for an evidentiary hearing. Petitioner argues his “actual innocence” can overcome any

26

“AFDPA issues” he might have. (Doc. 53 at 9.) lie also asserts that because he has not

27

been given an evidentiary hearing, any claims of procedural default arc defeated, and that

28

he is entitled to an evidentiary hearing because lie has “shovv|n| cause for his failure to

Case 2:19-cv-02540-GMS Document 58 Filed 06/26/20 Page 6 of 7

,

■1

develop the facts in state-court proceedings and actual prejudice resulting from that

2

failure.'' Banks v. Dretke, 540 U.S. 668. 690-91 (2004).

3

Petitioner’s “actual innocence'' can overcome the procedural default of his claims if

4

he establishes that his case is “extraordinary'' and that “the court cannot have confidence

5

in the contrary finding of guilt.” Johnson v. Knowles, 541 F.3d 933, 937 (9lh Cir. 2008).

6

“To becredible, such a claim requires petitioner to support his allegations of constitutional

n

error with new reliable evidence-whether it be exculpatory scientific evidence, trustworthy

8

eyewitness accounts, or critical physical evidence.” Schlup, 513 U.S. at 324. In his

9

Objection, Petitioner accuses the State of egregious misconduct, including “destroying

10

almost 200 pieces of exculpatory evidence; both the trial judge and prosecutor being

11

patently disingenuous to the jury about laws, facts, etc,” “the Slate suppressing and the trial

12

court precluding literally ALL impeachment evidence relevant to the State’s case,” and the

13

State withholding DNA test results that will “fully exonerate” Petitioner. (Doc. 53 at 9—

14

10.) These allegations do not meet the “new” and “reliable” standard under Schlup, either

15

because they were presented at the trial level or because they are too speculative. See

16

Larsen v. Soto, 742 L.3d 1083, 1096 (9th Cir. 2013) (“[Wje have denied access to the

17

Schlup gateway where a petitioner’s evidence, of innocence was merely cumulative or

18

speculative or was insufficient to overcome otherwise convincing proof of guilt ”)

19

As to Petitioner’s request for an evidentiary hearing, such a hearing is not required

20

because the issues Petitioner raises “can be resolved by reference to the state court record.”

21

Totten 1-. Merkle, 137 l'.3d 1 172, 1 176 (9th Cir. 1998). Moreover, even if, as Petitioner

22

suggests, the record below was not sufficiently developed, Petitioner has not “show[nj

23

cause for his failure to develop the facts in stale-court proceedings!” Banks, 540 U.S. at

24

690.

25

CONCLUSION

26

Having reviewed the record de novo, the Court adopts the R&R'and denies and

27

dismisses the Petition with prejudice.

28

ni

-6-

Case 2:19-cv-02540-GMS Document 58 Filed 06/26/20 Page 7 of 7

IT IS HEREBY -ORDERED .that Magistrate Judge Wi Helps R&R (Doc. 43) is
2
3
4
5
6

ACCEPTED
IT IS FURTHER ORDERED that Petitioner’s Petition for Writ of Habeas Corpus
(Doc. I) is DENIED and DISMISSED with prejudice.
IT IS FURTHER' ORDERED directing the Clerk of Court enter judgment
accordingly.

n

•IT IS FURTHER ORDERED that pursuant to Rule 1 1(a) of the Rules Governing

8

Section 2254 Cases, in the event Petitioner files an appeal, the Court declines to issue a

9

certificate of appealability because reasonable jurists would not find the Court’s procedural

10
11
12
1.3
14

ruling debatable. See Slack v. McDaniel.. 529 U.S. 473, 484 (2000).
Dated this 26th day of June, 2020.
\

4.___________
'HUc-xWaT/7
G. Murray gnow
Chief United Stat.esTustnct Judge

15
16
17
18
19
20
21
22
23
24
25
26
27
28

■~j

APPENDIX F
ORDER from Arizona Supreme Court (Habes)

pa®

I

I
I

SUPREME COURT OF ARIZONA
JOHN C. STUART,

)
)
Petitioner, )
)

Arizona Supreme Court
No. HC-18 - 0034

)
)
Respondent. )
)

FILED:

Maricopa County Superior Court
No. CR2008-106594-001

v.
CHARLES RYAN,

John -C.

11/14/2018

ORDER

Stuart has filed a Petition for Writ of Habeas Corpus

challenging the validity of his convictions and sentences.
Revised Statutes
Criminal

Procedure,

claims. Mr.
for

section

13-4233

provide

and

that

Rule

Rule

32

32.3,

Arizona

procedures

Arizona
Rules

govern

of

such

Stuart presented the same claims in a Rule 32 petition

post-conviction

relief,

which

the

superior

court

denied.

The

Court of Appeals granted review and denied relief in case number 1
CA-CR 16-0810 PRPC. Mr.

Stuart's petition for review is now pending

in this Court, case number CR-18-0396-PR. Therefore,
IT IS ORDERED, that the Petition for Writ of Habeas Corpus and
Petition for Decision and/or Disposition are dismissed.
DATED this 14th day of November, 2018.

/a/
Robert M. Brutinel
Duty Justice

TO:
John-C Stuart, ADOC 287294, Arizona State Prison, Winslow
Unit
Adena J Astrowsky

Kaibab

/IpPenJx ^
400

APPENDIX G
ORDER from Arizona Appellate Court (Appeal)

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

Arizona Court of Appeals
Division One
STATE OF ARIZONA, Appellee,
v.
JOHN C. STUART, Appellant.
No. 1 CA-CR 14-0047
FILED 4-28-2015
Appeal from the Superior Court in Maricopa County
No. CR2008-106594-001 DT
The Honorable Sherry K. Stephens, Judge
AFFIRMED
COUNSEL
Arizona Attorney General's Office, Phoenix
By Joseph T. Maziarz
Counsel for Appellee
Droban & Company, PC, Anthem
By Kerrie M. Droban
Counsel for Appellant

STATE v. STUART
Decision of the Court

MEMORANDUM DECISION
Judge Maurice Portley delivered the decision of the Court, in which
Presiding Judge Andrew W. Gould and Judge Jon W. Thompson joined.

PORTLEY, Judge:
Defendant John Chester Stuart was convicted and sentenced
HI
for second-degree murder and drive-by shooting. He appeals by arguing
that the trial court erred when it permitted Cynthia Cantrall to testify about
his bad temperament because it constituted impermissible character
evidence. For the following reasons, we affirm.
FACTS1 AND PROCEDURAL BACKGROUND

H2
The victim, Tom, and his wife, Rebecca, were driving home
from dinner on January 29, 2008, after attending the Phoenix Open golf
tournament. Stuart, accompanied by his fiance, Cynthia Cantrall, was
driving behind them, when Stuart drove over a double yellow line and sped
past Tom's car. After Stuart pulled in front of him, Tom "flashed his
brights."
H3

At the next red light on Scottsdale Road, Tom stopped his car
and Rebecca noticed that that Stuart's car was in the next lane. Stuart began
"giving [them] the finger with both hands," and Rebecca "blew him a kiss"
in response. Stuart also began yelling obscenities at them. Stuart then
gunned his engine and pulled his car diagonally in front of Tom's car,
blocking him. Tom got out of his car, but then put his hands up in surrender
and began backing up. Stuart opened his driver's door, began to step out
of the car and pointed a gun out of the car door. Cynthia yelled "[DJon't do
it," and then Stuart shot Tom in the face. Tom died at the scene. Stuart fled
in his car, but was later apprehended and arrested.

1 We view the facts in theiight most favorable to. upholding the conviction.
State v. Lowery, 230 Ariz. 536,538, If 2,287 P.3d 830,832 (App. 2012) (citation
omitted).
2

STATE v. STUART
Decision of the Court

14

A grand jury indicted Stuart for second-degree murder and
drive-by shooting. Following a remand to the grand jury, Stuart was reindicted for the same charges. Stuart was tried, but his first trial ended in a
mistrial.

115

During the retrial, the State called Cynthia to testify even
though Stuart had listed her as a witness.2 In addition to testifying about
her relationship with Stuart, the prosecutor asked Cynthia: "Did Mr. Stuart
ever display bad temperament to you around the time that this was
happening in 2008?" Stuart objected on the grounds of relevance. After a
brief sidebar, the judge overruled the objection.
16
Cynthia then testified, without objection, that early that
month she and Stuart began "campaigning for Ron Paul for president" and
Stuart became "involved" with a movie entitled "American Freedom to
Fascism by Aaron," which was "about the IRS and the government and
rights being taken away." The movie so incensed Stuart that when he
thought about it "he would get disturbed on the road." She also testified
that Stuart felt that people were not driving properly and he would get so
disturbed that "he would flip people off and get mad and angry."
Sometimes, she testified, Stuart would "get in front of them and slam on his
brakes

17

The jury convicted Stuart as charged, and he was
subsequently sentenced to concurrent terms of eighteen years and fourteen
years in prison. Stuart filed a timely notice of appeal. We have jurisdiction
over this appeal pursuant to Arizona Revised Statutes sections
12-120.21(A)(1), 13-4031, and -4033(A).3
DISCUSSION

18

Stuart argues that the trial court erred by permitting the State
to admit "impermissible character evidence." Specifically, Stuart asserts
that Cynthia "impermissibly testified concerning [his] 'bad temperament'
near the time of the murder ostensibly to show [his] state of mind."

19

To preserve an evidentiary issue for appellate review, "[a]
party must make a specific and timely objection at trial." State v. Hamilton,
177 Ariz. 403, 408, 868 P.2d 986, 991 (App. 1993); see also State v. Cook, 170
Ariz. 40, 58, .821 P.2d 731, 749 (1991); see generally Ariz. R. Evid. 103(a). "A
2 The State gave Cynthia limited use immunity because she had eiven
several different and inconsistent accounts of the incident before trial.
3 We cite to the current version of the statute unless otherwise noted.
3

STATE v. STUART
Decision of the Court
general objection, such as 'irrelevance/ [is] not sufficient to preserve the
issue for appeal." Hamilton, 177 Ariz. at 408, 868 P.2d at 991. Further,
objecting to the admission of evidence on one ground will not preserve the
issue on other grounds. Id. at 408, 868 P.2d at 991; see also State v. Lopez, 170
Ariz. 112,118, 822 P.2d 465,471 (App. 1991).

1110

When a defendant fails to make a timely and specific objection
at trial, we review solely for fundamental error. State v. Lopez, 217 Ariz. 433,
434-35, 4, 15 P.3d 682, 683-84 (App. 2008). Fundamental error is "error
going to the foundation of the case, error that takes from the defendant a
right essential to his defense, and error of such magnitude that the
defendant could not possibly have received a fair trial." State v. MorenoMedrano, 218 Ariz. 349, 352, | 7, 185 P.3d 135, 138 (App. 2008) (internal
citations and quotation marks omitted). To prevail, a defendant must show
"that error occurred, that it was fundamental, and that it prejudiced him."
Id. at 354, ^ 16, 185 P.3d at 140. Moreover, where a defendant does not
affirmatively argue that the alleged error is "fundamental" and brief the
issue in that context, the issue is deemed abandoned and waived on appeal.
Id. at 354,117,185 P.3d at 140; see Ariz. R. -Crim. P. 31.13(c)(l)(vi).
Here, Stuart did not object that Cynthia's testimony
Ill
constituted impermissible character evidence. Rather, Stuart objected on
the general ground of "relevance":
Q. Did Mr. Stuart ever display bad
temperament to you around the time that this
was happening in 2008?
MR. POSTER: Relevance?
THE COURT: Approach, please.
(Whereupon, a sidebar was had)
MR. POSTER: Behavioral. Any — anything it
is not relevant to the charge.
[PROSECUTOR]: State of mind up to that night.
I said around the time that this happened.
MR. POSTER: State of mind if it is at the time of
the incident.
[PROSECUTOR]: Right, I said around the time.

4

STATE v. STUART
Decision of the Court
THE COURT: Ask her the date again and you
are avowing to the Court that you have spoken
to her about this issue and she will say this was
an ongoing situation in terms of the state of
mind. Overruled.
As the record reveals, Stuart did not raise the issue of character evidence
and, as a result, failed to preserve that objection for appellate review. We
thus review his character objection on appeal only for fundamental error.
See Hamilton, 177 Ariz. at 408, 868 P.2d at 991.
Stuart argues, however, that State v. Rankovich, 159 Ariz. 116,
112
765 P.2d 518 (1988) controls our analysis. There, the State presented
evidence that was intended to show that the defendant was "an angry,
violent man, and that he was not motivated by self-defense," and our
supreme court stated it was character evidence and the defendant's
relevance objection should be analyzed under Arizona Rule of Evidence
404(a) and for harmless error. Id. at 119-20, 765 P.2d at 521-22.
Although our supreme court has not overruled the analysis in
113
Rankovich, the court's decision in State v. Henderson, clearly stated that our
review is not for harmless error, but for fundamental prejudicial error. 210
Ariz. 561, 567,
18-20,115 P.3d 601, 607 (2005). Moreover, the Henderson
analysis of fundamental error review has been applied to evidentiary
objections. See Lopez, 217 Ariz. at 434-35, f 4, 175 P.3d at 683-84 (finding
that an objection on one ground does not preserve the issue on another
ground and, as a result, we only review for fundamental error).
Consequently, our review is not for harmless error but fundamental error.
Despite Stuart's reliance on Rankovich and his failure to argue
114
that the court's error was fundamental, we have reviewed Cynthia's
testimony to determine if there is any fundamental prejudicial error. See
State v. Fernandez, 216 Ariz. 545, 554-55, 32, 169 P.3d 641, 650-51 (App.
2007) (court will not ignore fundamental error if it sees it). We find no
fundamental prejudicial error. Cynthia's testimony was relevant to
demonstrate Stuart's general state of mind when he was driving — that he
could get angry at other motorists based on his perception of their driving
skills. Her testimony, coupled with the other testimony the jury heard and
evaluated — Stuart passed Tom's car despite a double yellow line; Tom
then flashed his lights at him; and the events at the red traffic control light
— do not demonstrate that the court had to sua sponte preclude the
evidence based on a relevancy 'objection or that it den ions Ira Leu
fundamental prejudicial error. Consequently, we find no reversible error.

5

STATE v. STUART
Decision of the Court
CONCLUSION
115
sentences.

For the foregoing reasons, we affirm Stuart's convictions and

mS^
tflliHl
wls#
Ruth A. Willingham - Clerk of the Court
;v;i-F l LM:Ctit

6

EXHIBIT A
ARIZONA STATE BAR article

43FCOMING tOI^MUWiTY
r r .TOWN -KALLS
'.r-:

^rescott

........... Sept.12 *
........... Sept. 14
...........Sept. 18

X-jVlarana..;

- . An updated list of events and
. dates :cani)e found at

-

mfa
MiTti

Total population and prisoner population change since
1987
350%

300%
250%
200%
150%
1.00%

[Jii11*1 *11 lip

Hall is both simple and complex.
The simple part is the fact that the selec­
tion of a single annual issue focuses the
attention. It brings in the diverse voices of
many who might otherwise avoid the dia­
logue if it covered everything under the sun.
The complex part is the recognition that
criminal justice encompasses a dizzying num­
ber of interrelated parts. The wide variety of
elements is hinted at in the organization’s
67-page background report on the topic.
Researched and drafted by subject-matter
experts in partnership with ASU’s Morrison
Institute for Public Policy, it serves as a base­
line touchpoint for those interested in die
issue—among them attendees at the numer­
ous Community Town Halls. The report in­
cludes chapters on bail, fines and fees; the
charging process; sentencing and incarcera­
tion; vulnerable populations; re-entry and
recidivism; Native American issues; and po-

50%
0%
1987 1989 1991 1993 1995 1997 1999 2001 2003 2005 2007 2009 2011 2013 2015
—Arizona population change since 1987 —Arizona prison inmates change since 19S7
Figure 1.8: Change in Arizona total population and Department of Corrections inmates, 1987-2016
Source: Census Bureau and Arizona Department of Corrections

AZ 18+ Population

Arizona Prison Population

• White

* Latino
* African American
■ Native American

• Oliver

Figure 1- 7: Racial/Ethnic composition of prison and general populations - 2016
Source: Department of Cotrections & US Census Bureau

iicing.
For many people, diat last element—po­
licing—is what leaps to mind when criminal
justice is mentioned.
That’s because police are “the most visi­
ble aspect of the criminal justice system,”
says Phoenix Police Department Lieutenant
Brian Issitt in one of the “personal insights”
included in the report.
Issitt says he recalls when his fadier was a
sworn officer in Michigan back in the 1970s
and 1980s. He says that’s-when officers
“were just expected to enforce die law.” To­
day, though, police are expected to develop
deep connections with the communities
diey serve and to “do our best with the
mental health issues.”
How well or poorly officers are able to be
jacks of all trades has an immediate and
sometimes incendiary reaction by the com- I controversy,
munity. Issitt cites police use of force as one
just within policing, though, use of force
area that has become a subject of intense and mental health are simply two of many

£ K/i/g/r /\
WWW.aZbar.Org/AZAliOrnPy

aspects Town Mall attendees may address.
Others include how more than 140 Arizona
police agencies with 15,000 officers can

SEPTEMBER 2018 ARIZONA ATTORNEY

43

AZ TOWN HALL EXPLORES

CRSSVilNAL JUSTICE
HOW THE TOWN HALL WORKS
coordinate;'whether there are an adequate
number of officers as crime rates have de­
clined; body-worn cameras; local policing
and immigration enforcement; police-com­
munity relations; and the “militarization” of
. police.
The report-opens with a chapter dedicat­
ed to the dataand demographics of criminal
justice. Many of these points may be launch
pads for community discussion:
• The courts are busy. Two million cases
were filed in Arizona’s court system in
2016.
Low-income people often have difficulty
paying bail, forcing them to await trial
in jail.
® Imposing money bail does not improve
the chances that low-risk offenders will
return to court, nor does it protect the
public, because many high-risk defen­
dants have access to money and can post
bail.
e Arizona has the fifth-highest percentage
ofprisoners per capita. There are more
than 42,000 people incarcerated by the
state and in private prisons in Arizona.
In addition, federal facilities in Arizona
hold about 4,000 inmates, and county
jails hold another 14,000. The state
has an incarceration rate of 596 per
100,000 population—while the national
rate is 385 per 100,000 population.
* Since 1987, Arizona has doubled its
overall population, today reaching

The organization's signature events include statewide Town Halls convened
to'bring diverse Arizonans together for facilitated, civil discussions leading to
consensus solutions to the state's most pressing issues. Community programs are
held in venues across the state during the months before and after each state­
wide Town Hall. These community gatherings provide an opportunity for more
Arizonans to add their voice to the discussions.
' Arizona Town Hall also offers consulting services to government, business and
other entities interested in using Arizona Town Hall's unique system of facilitated,
consensus-oriented discussions to find common ground and bring solutions to
challenges they may be facing. Information at aztownhall.org.

about 7 million people.
In that time, die prison
population has in' creased fourfold.
committed has been
declining—by one-third
since 2006—despite
population increases.
• On average, every
Arizona taxpayer con­
tributes $525 each year
to fund the city, county
and statewide criminal
justice system.
• The average citizen is
more likely to be a
victim of a property
. crime radier than
violent crime. From
2006 to 2016, property
crimes have decreased
28 percent.

Number of Persons imprisoned in Arizona,
1980-2014
45.000
40.000
35.000
30,000
25.000
20,000
15.000
10,000
5.000

Correctional
facilities in
Arizona,
circles sized to
relative inmate
populations.

State Prisons

Federal Prisons

1,000
Private Prisons

2,000
j County Jails

■
-

4,000

«

fV

• Over the same period, as the state’s
population increased, the absolute
number of violent crimes dropped 20
percent.

—
«—

3
Si

s

3
i

i
i

0

“—Number of Persons Imprisoned

FIGURE 1.5:

Number of Violent Crimes Known to the Police

p'guce 6.1: Number of Persons imprisoned in Arizona. 1980-2014
■ nui ce: i he Sentencing Pr oject and FBI Uniform Crime Reports

Town Hall attendees will explore many ques­
tions, such as:
• Are the state’s systems set up to most
effectively keep people safer
• Are they providing equal protection?
• Is the more than $1 billion spent on
criminal justice being invested wisely?

4
' '«•5
1'
’•

P.

&•

I

l

sty
^ARIZONA ATTORNEY SEPTEMBER 2018

v/ww.azbar.o*9/AZAIlorncy

g;

'

• Arc \vc successfully reluming people
formerly incarcerated back into pro­
ductive citizens?
• Are there ways to achieve greater success
when working with vulnerable popula­
tions and when looking at sentencing
guidelines, fines and other challenges?
In a facilitated dialogue, issues like these
will be robustly discussed at the Town Hall
in early November and in the community

Number of Persons Imprisoned in Arizona,
1980-2014
45,000
40,000
35,000
30,000
25,000
20,000
15.000
10,000
5,000

-------------——-------------------------------------------------------r
—
-------——

0

versions leading up to it and following it.
Interested in the statewide gathering? Entail

—Number of Persons Imprisoned

Number of Violent Crimes Known to the Police

townhall@aztownhall.org. More information
about the complete initiative is available at

Figure 6.1: Number of Persons Imprisoned in Arizona, 1980 2014
Source: The Sentencing Project and FBI Uniform Crime Reports

aztownhall.org. £3

the issues: read more here

1

m

Criminal Justice in Arizona Background Report...............................

.........?.....https://tinyurl.com/AZTownHallReport

Criminal Justice in Arizona Key Facts.................................................

https://tinyurl.com/AZTownHallReportSurnmary' •

Community Town Hall Discussion Guidelines....................................

.........https://tinyurl.com/AZTownHallGuidelines

Community Town Hall Discussion Questions.....................................

.......... https://tinyurl.com/AZTownHallQuestions

Example Community Town Hall Report, from Downtown Phoenix

.................. https://tinyurl.com/AZTownHalldtphx .
v.*;

wvvwa7bar.org/AHAUorncy

SEPTEMBER 2018 ARIZONA ATTORNEY

45

EXHIBIT B
Arizona v. Fender decision

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 11.1.(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

Arizona Court of Appeals
Division One
STATE OF ARIZONA, Appellee,
v.
RICHARD LEE FENDER, Appellant.
No. 1 CA-CR 19-0586
FILED 10-22-2020
Appeal from the Superior Court in Mohave County
No, S8ii 15( 11201700603 .......
The Honorable Billy K. Sipe, Jr., Judge Pro Tempore
AFFIRMED IN PART; VACATED IN PART
COUNSEL
Arizona Attorney General's Office, Phoenix
By Michael O'Toole
Counsel for Appellee
Mohave County Legal Advocate's Office, Kingman
By Jill L. Evans
Counsel for Appellant

txtf/x/r

8

STATE v. FENDER
Decision of the Court
appearance bond is to assure a defendant's appearance at tire trial or other
hearings." State v. Bonds, 201 Ariz. 203, 208, *j[ 19 (App. 2001). An
appearance bond —and the court's discretionary determination to forfeit
cm, uai i, ui l.iOuc: Oi uiG Duilu. — is d piULCuuic uibuuCi uum a uicti

vuuiliui

related sentencing.
D.

Pensions and the Fourteenth Amendment

Finally, Fender alleges the trial judge had an improper
^24
financial interest nr tire trial's outcome. Specifically, he argues ADD
Arizona judges receive pecuniary gain from ALL convictions drat lead to
imprisonment, through the 'Elected Officials And Judges Pension Fund'
which is invested in the 'Private Prisons'" drat operate in Arizona. His
argument relies on Turney v. Ohio, in which the United States Supreme
Court held that where a judge personally received a portion of the assessed
court costs, such pecuniary interest disqualified him as impartial. 273 U.S.
510, 535 (1927). We disagree that any alleged pension fund investments in
corporations operating private prisons constitutes a "direct, personal,
substantial pecuniary interest" as to deprive defendants, including Fender,
of due process under the Fourteenth Amendment. See id. at 523. The
relationship between a judge and the financial policies and investment
decisions of the pension system administrators is "too remote to warrant a
presumption of bias toward conviction in prosecutions before" the judge.
See Ward v. Village of Monroeville, 409 U.S. 57,60-61 (1972) (describing Dugan
v. Ohio, 277 U.S. 61 (1928)),
We have read and considered counsel's brief and Fender's
If 25
supplemental brief, and we have fully reviewed the record for reversible
error. See Leon, 104 Ariz. at 300. Save for the double jeopardy violation
discussed above, we find none. So far as the record reveals, counsel
represented Fender at all stages of the proceedings, and the sentence
imposed was within the statutory guidelines. See A.R.S. § 13-3407(A)(7),
(B)(7), (E). We decline to order any further briefing.

■

Upon the filing of tins decision, defense counsel shall inform
1f26
Fender of the status of the appeal and of his future options. Counsel has no
further obligations unless, on review, counsel finds an issue appropriate for
submission to the Arizona Supreme Court by petition for review. See State
v. Shattuck, 140 Ariz. 582, 584-85 (1984). Fender shall have thirty days from
the date of this decision to proceed, if he desires, with an in propria persona
motion for reconsideration or petition for review.

9

EXHIBIT C
Arizona Republic article

NAACP lawsuit targets Arizona private
prisons, accuses state of practicing
slavery
! :n)svr, ( ;rii4*

Arizona Republici V:

CO-iUz.Z4: : ;/£5TUNK£Di:iCOWl£^7S;.^vl.rCr*E

A federal lawsuit filed against the Arizona Department of Corrections, Rehabilitation and
Reentry accuses the state of practicing slavery through its use of private prisons.
Five inmates and the NAACP filed the class-action lawsuit this week in U.S. District Court
in Arizona.
The lawsuit claims Arizona is practicing slavery by sending inmates to private prisons to
"generate revenues and profits for the monetary benefit of corporate owners,
shareholders and executive management."
The state corrections department contracts with six private facilities. As of Tuesday,
7,740 inmates were incarcerated in private facilities out of the overall state prison
population of 40,547.
Patrick Ptak, a spokesperson for Gov. Doug Ducey, said he could not comment on
pending litigation. The governor's focus when it comes to Arizona correctional programs
"has been on providing second chances," Ptak said.
“We want to see those serving their time have every opportunity to reenter society
successfully," Ptak said. 'We've implemented many programs that provide job training,
drug rehabilitation, counseling and more."
The three private prison companies operating in the state also pushed back.
issa Amita, a spokesperson for Management and Training Corporation, told The
Republic that the lawsuits claims are "blatantly false and slanderous." She said the
company has provided states and the federal government performance-based
correctional services for decades.
"Our focus on effective rehabilitation programs has helped people overcome addiction,
learn problem-solving skills, participate in faith-based programs, and obtain their GED,"
she said.
"So, its just the opposite — we’ve seen thousands of men and women take advantage of
evidence-based programs we provide to make lasting changes in their lives."

t^KH/e/r Cl

The attorneys said in a statement their goat is to place the issue of private incarceration
before the U.S. Supreme Court. One of the attorneys for the inmates and the NAACP is
Thomas Zlaket, former chief justice of the Arizona Supreme Court.
John Dacey, executive director of Abolish Private Prisons, said they hope the nation s
highest court wilt declare private prisons unconstitutional before a majority of states rely
on them.
The lawsuit was filed the same week as Juneteenth, which celebrates the Emancipation
Proclamation. On June 19,1865, Maj. Gen. Gordon Granger informed people in
Galveston, Texas, that enslaved African Americans were free, two years after the signing
of the proclamation.
Attorneys told The Arizona Republic it was a coincidence that the lawsuit was filed this
week, on Monday.

For-protit model caiied into question
Attorneys for the inmates and the NAACP claim the state is violating constitutional
rights by enforcing slavery and cruel and unusual punishment, and depriving them of due
process.
The Arizona State Conference for the HAACP's mission, in part, is to reduce mass
incarceration and the criminal justice system’s disproportionate impact on people of
'Color.

A May report by the Department of Corrections’ reflected the NAACP’s concerns. People
of color made up more than 58% of the overall Arizona prison population. However, the
five named plaintiffs in this week’s lawsuit are white.
“We are proud to be plaintiffs and represent the thousands of NAACP memoers here and
across the country — past, present, and future —who fought forfreedom and who will
live to see its fruits,” Charles Fanniel, executive director of the Arizona state conference
of the NAACP, said in a statement.
“Using a person’s incarceration to generate corporate profits is a form of slavery ," Dacey
said in a statement. “A profit-motivated criminal justice system also conflicts with
individual rights that are protected by the Due Process and Equal Protection Clauses of
the Constitution.”
He said the business model encourages incarceration of more people for longer terms.

X

David Shinn, director of the state corrections department, is accused of viewing inmates
as "property," according to the lawsuit. The attorneys claim in his role, Shinn is degrading
the human dignity of each inmate by making a profit.
The state is granting the private prisons full power over the inmates and "the fruits of
prisoners' economic value and labor," according to the lawsuit.
The attorneys argue the private prisons have a financial disadvantage when inmates are
released but can receive profit by their incarceration. The lawsuit said the facilities have
created biased administrators and have become similar to "slave jails," also known as
convict leasing.
After the end of the Civil War, convict leasing was practiced in southern-states. States
leased inmates to companies and plantations, inmaies received little earnings, unlike the
states, according to the Equal Justice initiative.
When the Thirteenth Amendment was passed, It prohibited slavery and involuntarily
servitude. However, it exempted people who were convicted of crimes.
The issue of paying inmates in Arizona's public prisons came up at the state Capitol this
year.
Rep. Kirsten Engel, D-Tucson, introduced a bill that would raise the minimum wage for
inmates who work jobs through Arizona Correctional Industries. The bill did not get a
hearing.

Who operates the facilities?
Arizona’s private prisons are operated by three companies, GEO Group, CoreCivic Inc.
and Management and Training Corporation.
The three companies incarcerate more than 90% of inmates in private prisons in the
U.S., according to the attorneys filing the suit.
Here's where the three operate in Arizona:
«
•
«
.. *

Central Arizona Correctional Facility: Located in Florence and operated by GEO Group.
Arizona State Prison-Florence West: Located in Florence and operated by GEO Group.
Arizona State Pnson-Kingman; Located in Kingman and operated by GEO Group.
Parana Community Correctional Treatment Facility: Located in Marana and operated by
Management and Training Corporation.

3

«

Arizona State Prison-Phoenix West: Located in Phoenix and operated by GEO Group.

•

Red Rock Correctional Center Located in Eioy and operated by CoreCivic, inc.
/\jj three companies are members of a trade group called Day 1 Alliance. Alexandra
Wilkes, the group’s spokesperson told The Republic the allegations in the lawsuit are
wrong.
'The reason governments first began utilizing public-private partnerships in the 1980s
was to address unsafe and unconstitutional conditions in the public correctional system
_including severe prison overcrowding and aging facilities that were endangering the
lives of incarcerated men and women," she said in a statement.
Wilkes said private sector contractors have partnered with governments led by
Democrats and Republicans.
'The notion that they would somehow be engaged in the activity this lawsuit alleges is a
terrible smear," she said.

Private prison companies weigh in
The GEO Group operates the most facilities for the state. According to a report by The
Desert Sun, the company filed a lawsuit against the state of California for its effort to ban
private prisons, catting it unconstitutional.
The company told The Republic it considers itself a trusted partner to government
agencies and the communities it serves by working every day to be a part of the solution
to society's correctional and rehabilitation needs.
'The evidence-based rehabilitative programming and reentry support we provide through
the GEO Continuum of Care to individuals in-custody and post-release has proven
successful nationwide," the company said in a statement. ’The collective belief of our
more than 23,000 team members is that as a company, we are most effective and at our
best when those we care for re-enter society as productive and employable citizens.
CoreCivic operates additional facilities in Arizona through partnerships with multiple
cities and federal agencies including, the cities of Mesa and Eioy, and ICE. The company
also has facilities in Arizona that house inmates from other states, including Hawaii,
Kansas and Nevada.
In a

filing made with the US.'Security and Exchange Commission .in late December, the
" told investors its growth depends on the ability to create new contracts and

company

y

ether factors that are outside of its control including crime rates, sentencing patterns,
governmental budgetary constraints and the acceptance of privatization.
'The demand for our facilities and services couid be adversely affected by the relaxation
of enforcement efforts, the expansion of alternatives to incarceration and detention,
leniency in conviction or parole standards and sentencing practices or through the
decriminalization of certain activities that are currently proscribed by criminal laws," the
company wrote.
Amanda Gilchrist, a spokesperson for CoreCivic, told The Republic when the company
rrpatftrf 35 years aoo. courts intervened in prisons in 31 states and the District of
Columbia due to inhumane conditions, and nine states had litigation pending.
!We were created to help address these challenges, and since then, we've played a
critical role for systems that are overcrowded or aging," she said. "We have successfully
partnered with federal, state and local governments to creatively and efficiently meet their
challenges in ways they could not do alone. As a result, many systems are safer and
better able to provide quality programming for the inmates in their care."
Management and Training Corporation, which operates the facility in Manana, called the
lawsuit "blatantly false."
The company used to operate the Kingman prison. In 2015, Ducey announced the state
would cut ties after a prison riot left 16 people injured and badly damaged the
facility.
Ducey said he based his decision on a Department of Corrections' report that determined
the company had “a culture of disorganization, disengagement, and disregard” of DOC
policies.

5

EXHIBIT D
Arizona Attorney General Opinion

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

1983 Ariz. Op. Atty. Gen. 27 (Ariz.A.G.), Ariz. Op. Atty. Gen. No. I83-034,1983 WL 42690
Office of the Attorney General
State of Arizona
183-034 (R83-028)
April 4,1983
*1 (Representative Messinger)—Public governing bodies may not contract with private corporations to provide law
enforcement personnel and services. [House of Representatives: opinion requests; Law Enforcement; Delegation of Authority;
Peace Officers; Public Safety, Department of; ARS32-2601; ARS32-2634; AG72-16; AG72-19; AG76-42; AG80-169]

The Honorable Paul R. Messinger
Arizona State Representative
State Capitol, House Wing
Phoenix, AZ 85007
Dear Representative Messinger:
We are writing in response your letter of January 17, 1983, in which you asked several questions regarding the ability of a
private corporation to provide law enforcement personnel and services to a municipality.
This issue has been discussed in two prior opinions of this office, both of which are attached for your information. In
Ariz.Atty.Gen.Op. 72-19, we said that a duly commissioned deputy sheriff may be paid with private funds, so long as the officer
is fully controlled by and answerable only to the sheriff. In Ariz.Atty.Gen.Op. 76-42, we said that a town's attempt to contract
with a private corporation for police services constitutes an illegal delegation of its authority to establish a police force. These
opinions remain valid.
The Legislature has granted the control of law enforcement exclusively to specific governing bodies, such as the state, counties,
cities, towns and designated agencies. Only a designated body can appoint or commission peace officers. State v. Ovens. 4
Ariz.App. 591, 422 P.2d 719 (1967); Ariz.Atty.Gen.Ops. 180-169, 72-16. Any attempt by the body to delegate its control,
direction and supervision would be illegal.1 See, e.g.. Godbev v. Roosevelt Sch. Dist. No. 66. 131 Ariz. 13, 638 P.2d 235
(Ct.App. 1981).
Sincerely,
BOB CORBIN
Attorney General
February 11,1976
The Honorable Walter L. Henderson
Attorney, Town of Oro Valley
220 East Speedway Blvd.
■ Tucson, Arizona 85705

t xa/B/r jy

Dear Mr. Henderson:
The question put forth in this opinion request is as follows:

WsrSTLftW -R 7020 Therm; n>- Reuters. No claim to anginal U.S. Governsos 0 -RV:L :

1

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

By authority of Title 41, Article 8, Arizona Revised Statutes, is the Arizona Law Enforcement Officer Advisory Council
authorized to deny certification of a duly commissioned law enforcement officer solely upon the basis that the officers are paid
by a private corporation and are not on the payroll of the State of Arizona or a political subdivision thereof?

*2 The question results from action taken by the Arizona Law Enforcement Officer Advisory Council (hereafter ‘Council’)
on October 6, 1975. The Council had been asked to issue peace officer employment standards certification for six individuals
employed by the Metropolitan Fire Department, Inc., and assertedly commissioned as peace officers by the Town of Oro
Valley (hereafter ‘Town’). On October 6, 1975, the Council declined to issue such certifications and stated: ‘In reviewing the
applicable statutes and rules as they apply to Oro Valley's contractual arrangements for police officers, we have concluded that
the men listed on the enclosure are, in fact, employees of a private corporation. Therefore, we cannot pursue the A.L.E.O.A.C.
certification procedures for them.’
Because the Town of Oro Valley improperly commissioned and appointed the six individuals, the question above need not be
answered. The Council cannot consider the certification of the six individuals because they are neither peace officers nor police
officers, and the Council thus lacks authority to certify, qualify, regulate, or govern them in any way.

I. FACTS:
The Town of Oro Valley was incorporated in 1974, pursuant to Ariz.Rev.Stat.Ann. § 9-101 (as amended 1973).
On July 16, 1975, the Town entered into a contract with the Metropolitan Fire Department, Inc. (hereafter ‘Metropolitan’),
an Arizona corporation, wherein Metropolitan agreed to provide police services for the Town of Oro Valley. The Town has
authority to provide for policing per A.R.S. § 9-240(B)(12).
By resolution adopted on July 20, 1975, the Town Council then ‘appointed’ and ‘commissioned’'Stephen L. Flermann as Chief
of Police in and for the Town of Oro Valley, Arizona, ‘. . . to enforce the laws of the State of Arizona and the ordinances of the
Town of Oro Valley, and to exercise all of the powers of commissioned police officer in and for the Town of Oro Valley, and
to take all actions required by law to exercise the police function of the Town.’
Subsequently, fne Town Council ‘appointed’ and ‘commissioned’ six full-time employees of Metropolitan to serve as regular
members of the Town's Police Department. (The Chief of Police is also a full-time employee of Metropolitan.) Apparently all
seven ‘members' of the Town's Police Department were placed on the Town's payroll at the rale of $1.00 per year, and were
issued checks in that amount. The Town has paid them no further stipends, but Metropolitan apparently does pay them salaries.

II. DISCUSSION:
There is no shortage of definitions of ‘peace officer’ and Taw enforcement officer’ in the Arizona Revised Statutes. A.R.S.
§ 1-215 states that:
In the statutes and laws of the state, unless that context otherwise requires ...

***
20. ‘Peace officers' means 'Sheriffs of counties, constables, marshals, and policemen of cities and towns.

A.R.S. § 9-901 sets out the following:
1 in this article [chapter S, Police and Fire Departments; article 1, Minimum Wages], unless the context otherwise requires:

WEST LAW W 2020 Thomson Reum

h'o claim to original U.8. Government Wo:

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

*3 3. ‘Peace officers' include regularly salaried deputy sheriffs, policemen and police officers of duly organized police
departments.

A.R.S. § 38-1001 says:
In this chapter [chapter 7, Merit Systems], unless the context otherwise requires:

***
4. ‘Law enforcement officer means:

***
(b) A regularly employed police officer in a city or town.

[NOTE: This definition also applies to the statute mandating overtime compensation for ‘person(s) engaged in law enforcement
activities'. A.R.S. § 23-392]

While neither term is defined in the statutes regarding the Council [Title 41, Article 8], the Council by regulation defines ‘peace
officer’ as a ‘member of a law enforcement unit who is employed to enforce the criminal laws of, and is commissioned by, a
city . . .’ [A.C.R.R. R 13-4-01(2)].
The Arizona appellate tribunals, have hot had occasion directly to determine who can and cannot be denominated a 'peace
officer.’ However, the term ‘public officer’ in A.R.S. § 13-541 and its predecessor has been construed, and the constructions
are important because State v. Arce. 6 Ariz.App. 24!, 245 (1967), has held that a police officer is a public officer. In State v.
Kurtz. 78 Ariz. 251 (1954), the Supreme Court held that in undertaking certain off-duty actions, several city police officers
were indeed acting as ‘public officers' and not as private citizens. The Court posited this test: ‘[W]ere the officers acting in
vindication of public right and justice, or were they merely performing acts of service to their private employer?’ 78 Ariz. at
218. In applying the test, the Court found it significant that ‘it manifestly appealed] from the record that at the time of the
incident in question the [private employer] had no right of supervision over these officers, nor did he attempt any such control.’
Id. And in State v. Ovens. 4 Ariz.App. 591 (1967), the Court of Appeals held that county attorney's investigators were not
peace (ergo, public) officers. The Court found that although the investigators had been administered oaths as deputy sheriffs
and had been given cards that stated they were ‘regularly appointed’ deputy sheriffs, they were not bona fide deputies and thus
not public officers. The Court stated:
It is our opinion that one of the vital elements in relation to being a defacto deputy sheriff is the matter of instructions from and
. control by the Sheriff or by some law enforcement or security organization or agency. 4 Ariz.App. at 596.

WESTlAW

(:■' vVi/f: ThOfY^np P;-!,:

id

onni-1"! U.P Government Work<-.

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

It is within these statutory and judicial pronouncements that the peace officer status vel non of six ‘members' of the Town's
police department must be decided. It is the conclusion of this office that under the circumstances, the six individuals do not
enjoy peace officer status.
No reported case has discussed the manner in which towns may exercise the authority ‘to establish and regulate the police of the
town, to appoint watchmen and policemen, and to remove them and to prescribe their powers and duties.’ A.R.S. § 9-240(B)
(12). This authority—along with the authority to undertake 28 other categories of activity set out in the statute—is permissive:
‘The common council shall, have the power . . .’ A.R.S. § 9-240(B). But there are compelling reasons for concluding that once
a town opts to exercise power in compliance with subsection 12, it must exercise the power fully, and may not cede authority
to a private organization. What the Town seeks to do is to ‘establish’ its police force, and to ‘appoint policemen’ but then to
permit Metropolitan.to ‘regulate the police’, and to ‘remove them’, and to ‘prescribe their powers and duties.’ Such a grant of
authority must be voided for contravening public policy.
*4 The discursive opinion of the Court of Appeals in Board of Education v. Scottsdale Education Association. 17 Ariz.App.
504 (1972) was vacated by the Supreme Court, for reasons not pertinent to this issue, at 109 Ariz. 342 (1973). In that opinion,
the Court concluded a School Board could not validly give up the responsibility of controlling and managing school district
affairs, nor could the Board surrender its discretion in the exercise of that responsibility. The Court thereupon voided a collective
bargaining agreement that effectively had done both. The Court grounded its view on highly persuasive authority from other
jurisdictions:
‘[T]he employer-employee relationship in government is a legislative matter which may not be delegated. Such [collective
bargaining] contracts if permitted to stand would result in taking away from a municipality its legislative power to control its
employees and vest such control in an unelected and uncontrolled private organization ...’17 Ariz.App. at 510, quoting Fellows
v. Latronica, 377 P.2d 547, 550 (Colo. 1962).
‘Under our form of government, public .. . employment never has been and cannot become a matter of bargaining and contract.
* * * This is true because the whole matter of qualifications, tenure, compensation and working conditions for any public
service, involves the exercise of legislative powers.
17 Ariz.App. at 510, quoting City of Springfield v. Clouse, 206
S.W.2d 539, 545 (Mo. 1947).
*

*

*’

The Court of Appeals also cited Arizona authority':
‘A public office is considered a public agency or trust, created in the interest and for the benefit of the people, i.e., public
officers are servants of the people, * * * A public officer may not agree to restrict his freedom of action in the exercise of his
powers, 43 Am. Jr. Public Officers § 295, and an agreement which interferes with his unbiased discharge of his duty to the
public, in the exercise of his office, is against public policy and unenforceable. 5 * * * School District No. 69 v. Aitherr, 10
Ariz.App. 333, 338 (1969).

A fortiori, a Town Council, may not agree to transfer regulation, supervision and control over the absolutely vital function of
enforcing the law and preserving the peace to a private agency responsible only to its stockholders.
There is no conflict between this opinion and this office's most recent pronouncement on the general topic of peace officer
status. In Department ofLaw Opinion No. 72-19, we found no impediment to peace officer status when a deputy sheriffs salary
derived from private funding; but the deputy was otherwise properly trained, qualified, supervised, directed and controlled in
his official endeavors by the sheriff. That opinion held that ‘where private corporations seek to assist a county in funding another
law enforcement officer which they [sic] could not otherwise afford, and where said officer is otherwise a duly appointed and
fully controlled, regular deputy sheriff, responsible only to the sheriff for his work direction, [then] such a deputy is a ‘peace
officer’ . . .'
Sincerely,

WESTLAW €> ?Q20 Tfvunson Reuses ;.

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

*5 (illegible signature)
Attorney General
JOHN A. LASOTA, JR.
Chief Assistant
Attorney General
June 29, 1972
DEPARTMENT OF LAW OPINION NO. 72-19 (R-51)
REQUESTED BY: JAMES J. HEGARTY
Secretary-Treasurer, Arizona Law
Enforcement Officers Advisory Council
QUESTION: Does the source of Funding affect the peace officer status of an otherwise duly appointed and full time deputy
sheri ff?
ANSWER: No. See body of opinion.
In Department of Law Opinion No. 70-24, the Attorney General responded to a similar question from the Arizona Law
Enforcement Officers Advisory Council in regard to the status of a civil deputy sheriff as a peace officer. The conclusion reached
there was as follows:
. . . [I]t is the opinion of this office, because of the aforementioned authorities, any title or position involving the use of the term
'Deputy Sheriff’ is required to be occupied by a properly trained and qualified peace officer.
That opinion further noted that the term ‘peace officer’ contemplates some regular assignment to arduous and hazardous duty.
A.R.S. § 38-842.10. Police Pension Board of City of Phoenix v. Warren. 97 Ariz. 180, 398 P.2d 892, rehearing denied, 97 Ariz.
301,400 P.2d 105 (1965).
Since Opinion No. 70-24 did not speak directly to the source of funding, particularly funding by non-governmental agencies,
some further-discussion is-needed. Initially, we should note several other statutory -definitions bearing upon this problem.

§ 1-215. Definitions
In the statutes and laws of the state, unless the context otherwise requires:

***
20. ‘Peace officers' mean sheriffs of counties, constables, marshals and policemen of cities and towns.

A- 'in. AW

-'ey

■ tw'-'A-'..!-. A-yeor.c Nr

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

§ 38-1001. Definitions
In this chapter [Chapter 7.—Merit Systems], unless the context otherwise requires:

4. ‘Law enforcement officer’ means:
(a) A regularly appointed and paid deputy sheriff of a county.

§ 9-901. Definitions
In this article [Article L Minimum Wages, Chapter 8.—Police and Fire Departments], unless the context otherwise requires:

***
3. ‘Peace officers' include regularly salaried deputy sheriffs, policemen and police officers of duly organized police departments.

In connection with A.R.S. § 9-901, we should also take note of A.R.S. § 9-903, as follows:
This article shall not be construed to apply to a person holding a courtesy or honorary commission in the police, peace officers or
fire forces of a city or town, or to persons not appointed in accordance with the rules, regulations, ordinances, charter provisions
or statutes concerning appointments to the police, peace officers or fire department to which appointment is claimed, or to those
officers employed in part time service.
(All emphasis added.)
It seems that two of the three definitions quoted above, i.e., A.R.S. §§ 38-1001 and 9-901, contemplate regular salary as
well as regular appointment. Thus, for the purposes of the merit system and for minimum wages of police departments, the
source of funding would affect at least the economic status of the peace officer. However, this is probably not true as a general
proposition. A.R.S. § 1-215.20 includes sheriffs as ‘peace officers' for general purposes of Arizona law, but deputies are not
specifically mentioned. Nevertheless, as noted in Opinion No. 70-24, deputy sheriffs are ‘generally thought to be possessed
with full authority to perform every act the sheriff, his principal, could perform. {Citing authorities.]’
*6 The Arizona Law Enforcement Officers Advisory Council is concerned about the status of deputy sheriffs because of the
provisions of A.R.S. § 41-1822, which states that the Council shall prescribe ‘reasonable minimum qualifications for officers
to-be appointed to enforce the laws of this state and the political subdivisions thereof.’ A.R.S. § 11-409 provides the methods
by which deputy sheriffs are appointed:
The county officers enumerated in § 11-401 may, by.and.with the consent of, and at salaries fixed by the board, appoint deputies,
stenographers, clerks and assistants necessary to conduct the affairs of their respective offices. The appointments shall be in
writing, and filed in the office of the county recorder. (Emphasis added.)
But even where a written appointment was not recorded, our Supreme Court has held that a deputy sheriff is not deprived of de
facto status as a public officer. State v. Stago. 82 Ariz. 285, 312 R2d 160 (1957).

WE ST LAW ¥> 2020 Thomson Reuters. No claim to onmno! U.G. Government Works.

The Honorable Paul R. Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

In State v. Staao, supra. Ernest Dillon charged the defendant with resisting and obstructing a public officer. Dillon had been
appointed by the Sheriff of Navajo County as a deputy sheriff and issued a card confirming the appointment. However, Dillon
was not paid by the county nor was his appointment recorded. He was paid by the Pinetop Merchant Patrol and wore a police
officer's uniform. Since the appointment had not been properly filed, the Court held that Dillon was not a de jure public officer.
However, for the purposes of the offense of resisting or "obstructing a public officer, he was held to be a de facto public officer.
This conclusion seems to have been based on two major points: (1) The statute requiring filing of written appointment was
directory; and (2) the Navajo County Board of Supervisors had accepted a $1,000.00 bond executed by Dillon to faithfully
perform the duties of a deputy sheriff.
It should also be noted that in the context of the offense of resisting or obstructing a public officer, a police officer is a public
officer. State v, Kurtz. 78 Ariz. 215, 279 P.2d 406 (1954); State v. Arce. 6 Ariz.App. 241,431 P.2d 681 (1967).
State v. Kurtz, supra, is another case that aids in answering the Council's main question. There the Court was concerned with
the issue of whether duly appointed and acting city policemen, when privately paid and employed during off duty hours, as
special officers to maintain order and keep the peace at a dance hall, were ‘public officers' within the obstructing a public officer
statute. The Court decided that the turning point for this issue was whether the officers were ‘performing mere acts of service
for their private employer’ or ‘were acting in vindication of the public right in apprehending a wrongdoer.’ 78 Ariz. at 219.
State v. Ovens. 4 Ariz.App. 591, 422 P.2d 719 (1967), is another case involving the status of a deputy sheriff paid by someone
other than the sheriff as a peace officer. There the Court noted that a person must be a peace officer to be authorized to serve
a warrant. A.R.S. §§ 1-215.20 and 13-1407. The Court held that two county attorney investigators who had been appointed
by the county attorney as deputy sheriffs were not de facto deputy sheriffs nor peace officers. Neither the holding of a deputy
sheriff card nor inclusion in a false arrest rider on the county's public liability insurance policy were sufficient to accomplish
this either. The Court also made the following relevant comment:
*7 It is our opinion that one of the vital elements in relation to being a de facto deputy sheriff is the matter of instructions from
and control by the Sheriff or by some law enforcement or security organization or agency. ... 4 Ariz.App. at 596.
This same idea of instruction and control is carried out to some extent in still another statutory definition of the term ‘peace
officer’ as follows:

§ 41-1701. Definitions

In this chapter [Chapter 12.—Public Safety], unless the context Otherwise requires:

***

5. ‘Peace officer’ means any personnel of the department designated by the director as being a peace officer under the provisions
of this chapter.

Although this definition does not have specific application to deputy sheriffs, it is interesting to note that the statutes relating
to the Arizona Law Enforcement Officer Advisory Council appear in this same chapter, thus making the definition applicable
to those statutes.
The above statutes and cases, reviewed in light of the facts here, wheic pi i vale corporations seek to assist a county in funding
■ another law enforcement .officer which they could not otherwise afford, and w'here said officer is otherwise a duly appointed
and fully controlled, regular deputy sheriff, responsible only to the sheriff for his work direction, clearly indicates that such a
deputy is a ‘peace officer’ and must meet the minimum standards.

Thomson Reuters. No claim to oncum

rp-rtool Vvorhs.

The Honorable Paul R, Messinger, 1983 Ariz. Op. Atty. Gen. 27 (1983)

As was alluded to earlier, this opinion does not cover any other relationship which might be governed by the source of salary,
i.e., merit system, retirement system, or insurance benefits or coverage. The only question posed and answered is as to the
‘peace officer’status of a deputy so employed. -

■

Respectfully submitted,
GARY K. NELSON
The Attorney General

Footnotes
In connection with this issue, we note the Legislature's treatment of privately controlled security guard services. A.R.S. §§ 32-2601 et
1
seep, permit the establishment of security guard services by private persons or organizations. However, A.R.S. § 32-2634 specifically
and unambiguously withholds peace officer status from a security guard. Thus, although the Legislature will permit private security
forces, it specifically has reserved the management of public law enforcement to public governing bodies of this state.
1983 Ariz. Op. Atty. Gen. 27 (Ariz.A.G.), Ariz. Op. Atty. Gen. No. I83-034,1983 WL 42690
Knd of Document-

. WESTL AA

© 2020 Thomson Reuters. Ho claim to original U.S. Government Works.

: nernson Reuters. No claim to original UN. G--

.eci Work'-;

EXHIBIT E
First trial Jury Question #13 and annotations

\ ,t- X
P i L S 0
W'CX'AV
MIoHAEL K JEANES. C'-erS

C'R 20i?S-i 0^594-001

a

I HENNINGER, DepuA

OF ARIZONA

s.

1.0HN CHESTER STUART

JUROR DELIBERATIONQPESTICTX:
J.

‘m'"c Oc foreperson submit ±c writ ten question to the Judge using this fo rm.
( '''v "'v' ''diO i ’-hat ya'n i;.v. c a ouesnen > he bailiff vv;H g;ve the form t.o;the Judea
end adorneys for consideration.
; !;c Judge will provide a
s\

QUESTION;

LzlLO._4ijA
0VMOyctuA KW-

.Cnn -a

O

..c V"V/2 CtX <F

T

A V

Os
..—

c

±ru arI u. nkfcj

p 1 F.ANd....

C.
v_a

-.

oOY'.'O.

lx

.
Foreperson U and signature
RESPONSE
5

:1 fA tt

AP -Af-AdA j)t" t'^-rxSrC.

/Aid. 'L&tA&i

X

Judgi’

- •ha Snrenor <Aup
1

t

'Snexiion ~ f.

£xv/&;r £

A

i*
n

jit and inn rule. Stare v. Wers (1977) i 17 Anz. • slaughter as defined in S »-3,456 (repe^ed; sec. | .g

(/

>20 57i 1"’ 2d 3 0]6. Constitutional Law ©" 769 • now. tins section and t> >3--l i03y._3).^5:Ocn. , 3
' "
^o: ol -26. ...........;
j
Defendant convicted of involuntary man■si
slaughter had no standing to complain of al­ 4. Nature and elements of offense
leged unconstitutional vagueness in definition of
Infliction of serious physical injury is an esinvoluntary manslaughter in A.R.S. § 1.1-456
sential element of the crime of negligent homi­
(repealed"; .see, now, this section) as unlawful
cide. State v. Harvey (App. Div.l 1998) 193
killing "in the commission of a lawful act which
;||j|
Ariz. 472, 974 P.2d 451, as amended, review
might" produce deal’ll in an unlawful manner"
denied.
Homicide
708
where defendant’s conviction did not arise irom
Negligent, homicide, unlike manslaughter, is
that part of statute and where jury was not
.Vf. •
established' when' person fails to perceive sub­
instructed with such words. State v. Powers
(1977) 117 Ariz. 220, 571 P.2d 1016. Constitu­ stantial and unjustifiable risk that his conduct psI'fs
will cause another’s death. State v. Nieto (App.
tional Law <£=> 759
Div.l 1996) 186 Anz. 449, 924 P.2d 453, review
2. Construction and application
denied. Homicide <®=' 70S
Negligent homicide is distinguished from
"Negligent, homicide" is established where a
3
reckless manslaughter in that lor the latter of­ person Tails to‘perceive the substantial and un­
fense, the defendant is aware of the risk, of justifiable risk that his or her conduct will cause
death and consciously disregards it, ■ whereas,
the death of another. State v. Fisher (1984) 141
for the former offense, he is unaware of the risk.
Ariz. 227, 686 P.2d 750, certiorari denied 105
State ex rel. Thomas v. Duncan (App. Div.l
S.Ct. 548, 469 1J.S. 1066, 83 L.Ed.2d 436, deni­
2.007) 216 Ariz. 260, 165 P.3d 238. Homicide
al of post-conviction relief reversed in part 152
;t"g
&=> 708; Homicide ©= 709
Ariz. 116, 730 P.2d 825, appeal after new trial
176 Aitz. 69, 859 P.2d 179. Homicide «= 708.
Construction given by California courts to
California statute, from which Arizona statute
Negligent homicide, established when a per­
son fails to perceive a substantial and unjustifia­
was adopted and which was in substantially the
same language would, if reasonable, be persuable risk and when failure to perceive risk is a
sive. State v. de Montaigu (App. Div.l 1977)
gross deviation from standard of care which a
117 Ariz. 322, 572 P.2d 456.
reasonable person would observe, is distin­
guished from reckless manslaughter in that for
3. Construction with other statutes
fatter offense, the defendant is aware of the risk 7f|||gvwof death and consciously disregards it, whereas;
Legislature presumably knew of § 13-1591
for the former offense, the defendant is unaware ||p?-DT;
(repealed; see, now, § 13-3981), relating to
of the risk. State v. Walton (App. Div.l 1982)
.
compromise, when i( created misdemeanor
manslaughter. State v. Garoutte (1964) 95 Ariz.
133 Ariz. 282, 650 P.2d 1264. Homicide^
'
234, 388~P.2d 809. Statutes «= 212.1
70S; Homicide <&=» 709
'
Section 13-1591 (repealed; see, now, § 13- j To constitute involuntary manslaughter, j
3981), relating to compromise, was applicable j homicide must have resulted from defendant s j
to misdemeanor motor vehicle manslaughter j fai]ul-e to exercise due caution and circurhspec-j |3j^'_
case. Slate v. Garoutte (1964) 95 Ariz. 234, 388 i tion_ which is equivalent of ‘'criminal, negli-I
djf
P.2d 809. Criminal Law ©=> 40
1 gence""or ‘"culpaHe negligence"; facts must be j
,•:—.t. Where former § 28-691 relating to negligent )j such that fatal" consequence of negligence acts j jj c
1 homicide by" driver of vehicle, was’enacted after h could reasonably have been tonesecn. Stauw . ,^|
; "felony statute, § 13-456 (repealed; i see, now, Jj Stambaugh (App._Unm4li£- ^ * ; yf ,
i
this section and~^'13-1103)"^ 'WoTuntary. jj .589 P.2d 469.,, Hqmjcffe^lOS........ ..................^ ||J|V|

i

II

11

h'
d.

s
K

m

a
ii

3

m
m

If.
%

! ’’''manslaughter committed without due caution |
"and circumspection, and both statutes required ;
substantially the same evidence of criminal neg- j
!
ligence for conviction, former § 28-691 impii- ■
ediy
repealed application of felony statute to ;
!
instances of homicide wherein instrumentality ;
of death was motor vehicle operaied without :
j
due caution and circumspccrioK. State v. Morf ;
j
(1956) 80 Ariz. 220, 295 P.2d 842. Automobiles !
!!
<i= 3 66
i
”as used in § 22-511 j
I
Phrase "criminal means
1
(repealed; see, now, §§ 11-593, 11-594), re!at- i
I
!|

Distinction, in § 13-456 (repealed; see, now,
section) proscribing vehicular manslaughbetween commission of an unlawful act
wjth gross negligence and commission of an
un]awful act without gross negligence was soiejy |or pnrpose Qf determining appropriate punrtlnuent and did not represent a legislative intent to require proof of ordinary negligence
with respect to commission of an unlawful act
without gross 'negligence, State v. Reynolds
(App. Div.2- 1973) 19 Ariz.App. 159, 505 P.2d
1050. Automobiles <S=> 344

214

h
a
(

d
I.
3
6

c
c
(■

:- i
1

c

fc
V

v
C

^
’
1

t""

I?'’ "
5

<

45

IP

■mmyrni

.IllptlSi

■ W8M

Itjli
lllftffe

f
£

§ 13-1102

Rtifns:

Note 7

:ide cannot be excusable when it is the
an unlawful aci. Stale v. Reynolds
19/3) 19 Ariz. App. 159, 505 P.2d
Ml yi^^^'Homicide «= 750
d|g|^^^^mp§gfe.ons;ii.ute ''involuntary manslaughter,'’ the ;
ce

defendant presents a credible argument that his
or her failure to perceive a risk was due to
either voluntaiy intoxication or something else.
negligent homicide would be a lesser included
f^eiise w*dl resPect 10 die defense that is unt-e-

« of pos^on vicUonlrdlef £

~

.. ijr'lndSmSa

-59 P‘2d

189(8}
conlemplates j ^
1
•^^^Mpt wniinitted unintentionally rather than f *!3fi}se of manslaughter, the reckless causing of j

codl^^aMhiionally.

State v. Prewitt (1969) 104 Ariz. j !*« *«** of ano1ther* l"

t 3 ferson wb? ]

P.2d 500. Homicide <^662
-------5 !rcckJess >' C2l)fe$ death °f another ais° acts Wlth
t
•• •
.
.
,
.
I j criminal negligence. State v. Parker (App.
" q^^^^gylinvdhm'atT mans.aughter, as distinguished 1 j Div.2 1980) 128 Ariz. 107, 624 P.2d. 304, afmanslaughter, contemplates an ] j finned in part, vacated in part 128 Ariz. 97, 624
xV)igff^^MM!gdn-imii.ted unintentionally. State v. Foggy ;; P.2d 294. Indictment And Information «£=»
101 Ariz. 469, 420 P.2d 934, certiorari ; ; 189(8)
;87 S.Ct. 1386, 386 U.S. 1025, 18 I ,2___ ___ __ _____________
IMS
468, rehearing denied 87 S.Ct. 2060, 1 6. Felony or misdemeanor
Hill'S. 938, 18 L.Ed.2d 1008. Homicide <s=> I
Where jury found defendant guilty of offense
!
i of vehicular manslaughter with gross negligence
and recommended punishment by imprison­
so®,ggs^|fder manslaughter statutes legislature in|gjjil!ptte$ .that killing of each human being, under
ment in county jail, trial judge was required to
Ij^PIl^insteiices described in the code, would
accept the recommendation and could not des­
pgM||§||titute a separate offense. State v. Miranda
ignate crime as a felony. State v. de Montaigu
/a.,., rsa, i i cml i i n a-;-, i-yj
o
pBptepn.i’.) 966) 3 Ariz.App. 550. 416 P.2d 444.
risli^i^^l ^^^ftfflffiickle ®=> 654
Criminal Law <£= 885
vM
^M^^abntarv manslaughter is committed inten- {
Where jury simply finds defendant guilty of
,while involuntary manslaughter is com- ] vehicular manslaughter and makes no further
lunintentionallv. State v. Douglas (App. f recommendation, vehicular manslaughter could
2 Ariz.App. 178,407 P.2d 117. Homicide * be characterized as an open-ended offense:
Vhomicide ?=* 662
■
; however, when jury' goes further and recompeace officer, in attempting to arrest a ! mends c?un%,jai1 term' cri"ie ceases ta be
driver, shot at a tire to disable autorno- 1
aad becomes a mtsdemeattor. State
killed driver, even though killing was 1
r?P- M
cl\i
'
tr^^^fei^mional. his act being unlawful, offense! 572 P2d 456- Cnminal Law <2= 27

Mi®"'-

- —,

j—

—...................................... .....................—

:^Sm

a

.

^^^SSyMtjnvoluatary manslaughter.

Harding v. j 7.

r;%^^®Sfe-"U924) 26 Ariz. 334, 225 P. 482. Homi- 1
706"
’.
,
■
«|gug «. inyoluutaiy. it committed in
adon °f unlawlul act noi amounting to
eic. Wilev v. State 119 18; 19 Ariz. 346,

}
!
:
•
,

.
i
.^gbgenijiomicifJe is_ a . lesser .in-.
mSSu
''J’S■ " '
1
" |Ar,'l3i< "" ' „
'' tCh'10‘t1’
f-Ct-, >?' 469
83 :
uemunvte^5i^&Fc! Xd 4o6. denial of posi-convu.iion rehef rel^*P»d i- ntu i 152 AViz. 116. 730 P.?d 825,
a,u;!' — "'i;d 17<> A.iz. 6V. 859 P.2d
vlvi!bidir.tmeni And In.lonnaiion <3= 189(8) '
b(»»'C'de is not a lesser included
f°* n!»nslauglitcr when: the defendant’s

iytv. i

t y / / f

i i /

ji.4.,

j / 4

l .4.U

*TJD.

Double jeopardv

_ ...... .

Double jeopardy aid not preclude instruction
that negligent homicide defendant's negligence
could be'established ' by evidence that he had
acted intentionally, knowingly or recklessly,
even though defendant had previously been
found not guilty of first and second-degree murdcr and manslaughter. State v. Nunez (1991)
167 Ariz. 272, 806 P.2d 861. Double Jeopardy
102
-—
-d did -t contain evidence of
defendant's alleged trial and acquittal in municiptil court of driving while under influence of
•'
, , r , ,
,
,,
'"‘oxicanng l.quor and defendant did not, after
of
court
(or manslaughter in driving ol a motor vehicle,
raise question ol double jeopardy or object to
introduction ol any evidence on question of
intoxication or ask for instructions limiting use

j
j
i
j
|
:

EXHIBIT F
“Willit’s List” of suppressed evidence

1
vm.

WILLITS LIST

JURY INSTRUCTION:
Standard Criminal 10 - Lost, Destroyed, or Unpreserved Evidence
If you find that the State has lost, destroyed, or failed to preserve evidence whose
contents or quality are important to the issues in this case, then you should weigh the
explanation, if any, given for the loss or unavailability of the evidence. If you find that
any such explanation is inadequate, then you may draw an inference unfavorable to the
State, which in itself may create a reasonable doubt as to the defendant’s guilt.
SOURCE: State v. Willits, 96 Ariz. 184, 187,393 P.2d 274,277-78 (1964); State v.
Eagle, 196 Ariz. 27, 31, 992 P.2d 1122, 1126 (App. 1998) and State v. Tucker, 157 Ariz.
433,443, 759 P.2d 579, 589 (1988).
USE NOTE: “A Willits instruction is appropriate when the State destroys or loses
evidence potentially helpful to the defendant.” State v. Murray, 184 Ariz. 9,33, 906 P.2d
542, 566 (1995) (quoting State v. Lopez, 163 Ariz. 108, 113,786 P.2d 959,964 (1990)).
However, the destruction or nonretention of evidence does not automatically entitle a
defendant to a Willits instruction. Id. A Willits instruction is not given merely because a
more exhaustive investigation could have been made. To merit the instruction, a
defendant must show “(1) that the State failed to preserve material and reasonably
accessible evidence having a tendency to exonerate [the defendant], and (2) that this
failure resulted in prejudice.” Murray, id. (citing State v. Henry, 176 Ariz. 569, 863 P.2d
861 (1993)). “Evidence must possess exculpatory value that is apparent before it is
destroyed.” State v. Davis, 205 Ariz. 174, 180,68 P.3d 127,133 (App. 2002) (instruction
not warranted where the police failed to preserve the carpet in which the victim was
wrapped because the defendant admitted wrapping the victim in the carpet and burning
her body with gasoline). Whether either showing has been made is a question for the trial
court; its decision to forego a Willits instruction for failure to satisfy either or both of the
above requirements will not be reversed absent an abuse of discretion. State v. Reffitt, 145
Ariz. 452,461,702 P.2d 681,690 (1985).
(See :State of Arizona, Revised Arizona Jury Instructions - Criminal, 3D, 2013
Revision).
In Stuart’s case, the following is a list of lost, destroyed, or unpreserved evidence:
I.

EVIDENCE IN OR SURROUNDING THE TOYOTA FJ
CRUISER

37

1.
2.
3.
4.

5.
6.
7.
8.

9.
10.
11.
12.
13.
14.
15.
16.
17.
18.
19.
20.

21.
22.
23.
24.

25.
26.
27.

28.
29.
30.

31.
32.
33.
34.

35.
36.
n.

Toyota FJ Cruiser was lost 9 months.
Tarp removed soon after Dalton installed.
Tarp was not recovered after removed.
Windows left open.
Hood not fingerprinted.
Front door not fingerprinted.
Rear door not fingerprinted.
Windshield not fingerprinted
Button for storage compartment not fingerprinted.
Outside door handle not fingerprinted.
Blood on the steering wheel not discovered.
Blood on the steering wheel not tested for DNA.
Headliner GSR inside the vehicle not discovered.
Headliner GSR inside the vehicle not tested.
Dashboad GSR inside the vehicle not discovered.
Dashboard GSR inside the vehicle not tested.
Steering wheel GSR inside the vehicle not discovered.
Steering wheel GSR inside the vehicle not tested.
Measurements inside the vehicle not taken.
Blood on the running board not discovered.
Blood on the running board not tested.
Blood on the ground where detained not discovered.
Blood on the ground where detained not tested.
Rifle missing for the rear storage compartment.
Driver’s side view mirror not checked to see if moved.
Driver’s side view mirror not fingerprinted.
Driver’s side view mirror not tested.
Mark on driver’s door, A-pillar, not discovered.
Marie on driver’s door, A-pillar, not tested.
Rearview mirror not checked if canted up for high beams.
Palm print on hood.
Arm print on hood.
No supplemental DR on measurements.
No notes for supplemental DR on measurements.
Rain washed outside of FJ - lost evidence.
Shell casing location.

CASE FILE
37.
3 8.
39.

Officers’-original notes destroyed.
Case agent original notes destroyed.
Fire department notes destroyed

38

40.
41.
42.
43.
44.
45.
46.
47.
48.
49.
50.
51.
52.
53.
54.

HI.

EVIDENCE SURROUNDING AND INCLUDING THE GUN
55.
56.
57.
58.
59.
60.
61.
62.
63.
64.
65.

IV.

Medical Examiner notes destroyed.
Rubber glove found inside the vehicle destroyed.
Holster not tested for blood.
Holster not tested for DNA.
Inhaler not tested.
Inhaler not verified as prescribed to Beasley.
Inhaler destroyed.
Photographs were taken with substandard camera.
Photographs saved as JPEG pictures.
Photographs saved at 72 dpi instead of 600 dpi.
Rodeo was not checked for high beams on or off.
Old or bad color chart used.
Pictures were overexposed.
Holster strap missing.
Holster was not tested to see if strap was cut or tom.

First two officers testified gun was in cup holder, others testified
gun was in console.
Gun DNA swabs were not tested.
Magazine DNA swabs were not tested.
Ammunition DNA swabs were not tested.
Magazines were not fingerprinted.
Ammunition was not fingerprinted.
Barrel was not tested for blowback.
Gun was not tested for stippling patterns (defense did it).
Gun not tested for GSR pattern
Gun not tested to confirm casing ejects forward if canted.
Gun not checked for Beasley's DNA (re: struggle for gun).

EVIDENCE CONTAINED IN STUART’S HOUSE
66.
67.
68.
69.
70.
71.
72.
73.
74.
75.
76.

Gun safe not opened.
Gun safe not seized.
Wall safe not opened.
Wall safe not seized.
Clock safe not opened.
Clock safe not seized.
Glock27 still missing.
Chevy truck was not searched.
Witnesses did not see John carry anything out of house (clothes).
No clothes located out on roadway.
No clothing checked or tested.

39

V.

EVIDENCE DIRECTLY FROM JOHN STUART
77.
78.
79.
80.
81.
82.
83.
84.
85.
86.
87.

VI.

Clothing was not collected.
Clothing was not checked for DNA.
Blood sample was not collected.
Blood sample was not tested.
Urine sample was not collected.
Urine sample was not tested.
A medical examination was not conducted for injuries.
GSR kit was lost
GSR kit was not tested.
Not checked for Beasley's fingerprints.
Not checked for Beasley's DNA.

EVIDENCE DIRECTLY FROM CINDY CANTRELL
88.
89.
90.
91.
92.
93.

GSR kit not collected.
GSR kit not tested.
Clothing was not collected.
Cindy was not searched.
Cindy was not fingerprinted.
No investigation regarding Cindy's weapons.

VII. EVIDENCE DIRECTLY FROM MR. BEASLEY
94.
95.
96.
97.
98.
99.
100.
101.
102.
103.
104.
105.

hair sample was destroyed.
Hair sample was not tested.
Fingernail clippings were not tested for John's DNA.
Fingernail clippings were destroyed.
Body was moved two or three times.
Not tested for hallucinogens.
Not tested for steroids.
Chipped tooth in body not tested.
Hands not tested to match FJ marks.
Hands were not fingerprinted.
_
Jacket was kept for testing.
Jacket was not tested.

VIII. EVIDENCE DIRECTLY FROM MRS. BEASLEY
106.
107.
108.
109.

Was not fingerprinted for match on FJ marks.
Was extremely intoxicated but not field sobriety tested.
Was notgivena PBT.
Admitted in the 2nd trial to lying to police and committing
perjury in the 1st trial by falsely testifying Mr. Beasley fell on

40

their Rodeo.
110. Admitted in the 2nd trial to lying to police and committing
peijury in the 1st trial by falsely testifying Mr. Beasley bled
on their Rodeo.
111. Admitted in the 2nd trial to lying to police and committing
peijury in the 1st trial by falsely testifying she had to wash
blood off of their Rodeo
112. Was not questioned regarding her intoxication.
IX.

EVIDENCE SURROUNDING THE CARTRIDGES
109. Fired cartridge was moved (kicked).
110. 13 unfired cartridges were not fingerprinted.
111. Federal cartridge was not test fired.

X.

OTHER MISCELLANEOUS EVIDENCE
112.
113.
114.
115.
116.
117.
118.
119.

XI.

Blood expert did not inspect John.
Blood expert did not inspect Cindy.
Blood expert did not examine the gun.
Blood expert did not examine Mr. Beasley.
Blood expert did not examine the FJ.
Rifle missing.
$7,000 in cash missing (Cindy thought it was $500).
Prosecution presented no grounds or evidence for “drive by
shooting.”

PROSECUTOR CHARBEL’S INVOLVEMENT IN THE
LOSS/DESTRUCTION OF EVIDENCE
120.
121.
122.
123.
124.
125.
126.
127.
128.

Suborned peijury by Mrs. Beasley.
Suborned perjury by Detective Dalton.
Suborned peijury by Detective Korns
Suborned peijury by Dr. Home.
Suborned perjury by Cindy Cantrell.
Concealed changes in testimony by Mrs. Beasley
Concealed changes in testimony by Detective Dalton.
Concealed changes in testimony by Detective Koras.
Concealed changes in testimony by Cindy Cantrell

41

